Proof of Service

Lamm v. Bullock, Case No.

I certify that on October 6, 2020, the Emergency Application for Writ of
Injunction, Relief Requested by Thursday, October 8, 2020 and accompanying
appendix in the above titled case, were served upon the following counsel of record
by first-class mail and e-mail, and that all counsel of record have been served:

Raphael Graybill, Chief Legal Counsel
raphael.graybill@mt.gov

Rylee Sommers-Flanagan, Deputy Legal Counsel
rylee.sommers-flanagan@mt.gov

OFFICE OF THE GOVERNOR

P.O. Box 200801

Helena, MT 59620-0801

Telephone: (406) 444-3179

Representing Stephen Bullock, in his official capacity as Governor of Montana

Christopher D. Abbott, Assistant Attorney General

AGENCY LEGAL SERVICES BUREAU

1712 Ninth Ave.

Helena, MT 59601

Telephone: (406) 444-5779

Christopher.Abbott@mt.gov

Representing Stephen Bullock, in his official capacity as Governor of Montana

Austin M. James, Special Attorney General

MONTANA SECRETARY OF STATE

P.O. Box 202801

Helena, MT 59620-2801

Telephone: (406) 444-2034

austin james@mt.gov

Representing Corey Stapleton, in his official capacity as Secretary of State of

Montana
( purknashinnen Mubbonte
Courtney Tarner Milbank
